NO. 20-107

In the Supreme Court of the United States
CEDAR POINT NURSERY AND FOWLER PACKING COMPANY, INC., Petitioners,
v.
VICTORIA HASSID, IN HER OFFICIAL CAPACITY AS CHAIR OF THE CALIFORNIA
AGRICULTURAL LABOR RELATIONS BOARD, ET AL., Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF
LEGAL HISTORIANS AS AMICI CURIAE IN SUPPORT OF RESPONDENTS
contains 7,976 words, respectively, excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on February 12, 2021.
Respectfully submitted,
/s/ Katharine M. Mapes
Katharine M. Mapes
Counsel of Record for Amici Curiae
Legal Historians

